                             NATIONAL SCIENCE FOUNDATION
                                   4201 Wilson Boulevard
                                 ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL


MEMORANDUM

DATE:         March 15, 2011

TO:           Martha A. Rubenstein
              Director and Chief Financial Officer
              Office of Budget, Finance, and Award Management (BFA/OAD)

FROM:         Dr. Brett M. Baker /s/
              Assistant Inspector General for Audit

SUBJECT:      Limited Scope Review of Recovery Act Quarterly Reporting Processes –
              American Museum of Natural History, Report Number OIG 11-1-007


        As part of our oversight responsibilities, the Office of Inspector General (OIG) has
conducted reviews of institutions that have received National Science Foundation (NSF) grants
funded by the American Recovery and Reinvestment Act (ARRA or Recovery Act) to assess the
overall quality of required quarterly reporting. Such quarterly reports contain detailed
information on ARRA projects and activities and are the primary means for keeping the public
informed about the way funds are spent and the outcomes achieved. Our review objectives were
to determine whether the American Museum of Natural History (AMNH or Museum) had
established an adequate system of internal controls to provide reasonable assurance that (1)
Recovery Act funds were segregated and separately tracked in its project cost accounting system
and (2) quarterly reporting was timely, accurate, and fully compliant with Section 1512 ARRA
reporting requirements. A detailed description of the background, objectives, scope, and
methodology can be found in Appendix A.

Results of Review

         Our review found that AMNH had established an adequate internal control system for
segregating and tracking the Museum’s three Recovery Act grants totaling $1.8 million and had
submitted timely ARRA quarterly reports. However, the Museum lacked a thorough
understanding of the intricacies of ARRA reporting requirements to ensure the most complete
and accurate data was reported that is fully compliant with Section 1512 requirements. As a
result, our review of the December 2009 and March 2010 quarterly reports disclosed that three of
the eight data elements reviewed were incorrectly reported. Specifically, AMNH accurately
reported the following five data elements: expenditures, funds received/invoiced, subaward
amounts, project status, and final report status. However, the Museum had not established
adequate processes to accurately report the number of jobs created/retained, quarterly
                                               1
activities/project description, and vendor payments. In addition, as of March 2010, AMNH had
overcharged $3,072 or               of indirect costs on one of its three ARRA grants.

         These exceptions occurred primarily because AMNH lacked a comprehensive
understanding of the OMB reporting requirements and supplemental guidance. Given the
volume and complexity of the OMB guidance, the last minute changes to the guidance each
quarter, and the volume of ARRA data required to be reported within 10 days after the end of
each quarter, this was understandably a difficult process for any ARRA grant recipient.
Nevertheless, given the unprecedented accountability and transparency goals of the Recovery
Act, the development of effective processes for ensuring ARRA data quality are critical factors
for fulfilling the Museum’s responsibilities under its NSF award agreements. Without complete
and accurate reporting of ARRA project information and activities, the public and other
stakeholders cannot clearly determine if Recovery Act funds are being spent as intended, thus
undermining the integrity of the stimulus funding and refuting its promise of increased
accountability and transparency.

        A draft of this memorandum report was provided to AMNH management for review and
comment. In addition, continuous verbal communication of our results was provided to Museum
officials during the review so that AMNH could take timely actions to implement improvements
needed to promote the highest degree of transparency and accountability over Recovery Act
funds. AMNH concurred with audit recommendations 1.2, 2.1, and 2.2. Specifically, the
Museum has updated its federal grant policies and procedures to include key aspects of ARRA
reporting, including establishing internal data quality review processes to ensure the accuracy of
its quarterly reports. It has also been exploring alternative indirect cost calculation and review
procedures to ensure accurate application of the indirect cost rate to its federal grants.

       With regard to recommendation 1.1, we have redirected the recommendation from NSF
to AMNH in the final audit report. The recommendation directs the Museum to monitor
evolving OMB and NSF Recovery Act guidance to ensure responsible officials acquire the
necessary knowledge and expertise in ARRA reporting requirements. We have asked AMNH to
provide its position on this new recommendation in its Corrective Action Plan during the formal
NSF audit resolution process.

        While AMNH concurred with the audit recommendations, the Museum did not agree that
it had inaccurately reported the number of ARRA jobs. The Museum believed that because the
OMB reporting guidance was not always clear and specific, its decision not to report any jobs for
tenured faculty, small vendors, and student trainees was appropriate based on its best “reasonable
judgment” in interpreting the OMB reporting requirements. We have provided our response to
each of AMNH’s comments after recommendation 1.2a to reaffirm our audit conclusions. The
Museum’s written comments in their entirety are included as Appendix B.

        To help ensure the recommendations are resolved within six months of audit report
issuance pursuant to Office of Management and Budget Circular A-50, please provide the audit
resolution memorandum for our review when NSF has obtained an acceptable Corrective Action
Plan. The Plan should detail specific AMNH actions taken and/or planned to address each audit


                                                2
recommendation. Milestone dates should be provided for corrective actions not yet completed.
Each audit recommendation should not be closed until NSF determines that AMNH has
adequately addressed the recommendations and proposed corrective actions have been
satisfactorily implemented.

       We appreciate the cooperation that was extended to us during our review. If you have
any questions, please free to contact Joyce Werking at extension 8097 or Jennifer Miller at
extension 8532.

cc:    Mary Santonastasso, Division Director, DIAS
       Dale Bell, Deputy Division Director, DIAS
       Alex Wynnyk, Branch Chief, CAAR/DIAS




                                              3
                             Audit Findings and Recommendations

1. Improvements Needed in Reporting of ARRA Jobs, Quarterly Activities, and Vendor
   Payments

        AMNH incorrectly reported several key data elements in its ARRA reports for the
December 2009 and March 2010 reporting periods. For the December reporting period, the
Museum did not establish adequate processes to correctly report number of jobs created/retained,
quarterly activities, and vendor payments. The same reporting errors continued in the second
reporting period except that AMNH did correct the vendor payment information.

Job Estimates Reported Need To Be Complete and Accurate

        Section 5.2 of OMB Memorandum M-10-08 1 defines a job as one in which wages or
salaries are paid for or reimbursed with Recovery Act funding. Using this definition, recipients
are required to report an estimate of the number of jobs created or retained for each ARRA
reporting quarter. Also, job estimates are required to be reported for vendors and subrecipients
funded under Recovery Act projects.

        However, contrary to OMB requirements, AMNH had not established and implemented
adequate processes for ensuring that tenured faculty, vendors, and student trainees were included
in the estimate of ARRA jobs created and/or retained. Consequently, no job activity was
reported for any of its Recovery Act awards through the March 2010 reporting quarter.
Specifically, our review disclosed the following job reporting errors:

    •   A tenured faculty member, who charged $2,472 salary to an ARRA grant, was not
        included in the jobs reported because Museum officials believed tenured faculty did not
        fit the OMB criteria of an ARRA “job retained.”

    •   Vendor job estimates were not obtained during any of the ARRA reporting quarters for
        payments totaling $21,540 because AMNH officials were not aware of the OMB
        requirement for reporting such jobs. Our review, however, did not identify that any of
        these small vendor payments likely resulted in any ARRA jobs that should have been
        reported. Nevertheless, establishing appropriate procedures for obtaining job estimates
        from vendors is particularly important given that one ARRA grant has significant funds
        budgeted for a major equipment purchase that could potentially require the reporting of a
        large number of ARRA vendor jobs.




1
         OMB Memorandum M-10-08, Updated Guidance on the American Recovery and Reinvestment Act – Data
Quality, Non-Reporting Recipients, and Reporting of Job Estimates, was issued December 18, 2009.

                                                  4
    •   Reporting of jobs for ARRA-funded student trainees was not determined because AMNH
        did not consider whether such students should be included in the Recovery Act job
        estimates. As such, jobs were not reported for eight students who each received $4,000 in
        stipend payments during the summer of 2009 for participating in the Research
        Experiences for Undergraduates (REU) program. Specifically, the Museum received a
        $475,000 ARRA grant for the REU program for the five summers from 2009 through
        2013. Officials stated that no jobs were reported for the eight student trainees because
        specific NSF Recovery Act guidance addressing this matter was not issued until May
        2010. 2

Quarterly Project Activities Require Complete and Clear Reporting

         OMB Memorandum M-09-21, 3 Section 2.1, requires recipients to provide descriptions of
projects and activities funded by the Recovery Act. Accordingly, the quarterly activities/project
description data field must be sufficiently clear to facilitate the general public’s understanding of
how Recovery Act funds are being spent. OMB supplemental guidance instructs recipients to
include a description of the overall purpose of the project as well as the expected outcomes and
results.

         However, our review found that AMNH had not established sufficient processes to
ensure that adequate descriptions of project activities were consistently provided in its quarterly
reports. Specifically, our review of the December 2009 and March 2010 reports showed that
while two of the three ARRA reports provided adequate descriptions of quarterly project
activities, the remaining report only contained a project description. Discussions with the
project's Principal Investigator disclosed that ARRA funds were used to fund travel to perform
research at an offsite facility during both periods. However, the Museum failed to communicate
to the public the current research endeavors underway at the offsite facility and the related
project outcomes in either ARRA report. This occurred because the Museum did not provide
any procedural guidance to its Principal Investigators, who were responsible for completing this
data element, to ensure reporting compliant with OMB requirements.

Vendor Payments Less than $25,000 Need To Be Accurately Reported

        OMB Memorandum M-09-21, Section 2.3, requires recipients to report on a cumulative
basis the total number and dollar of vendor as well as subaward payments under $25,000 in each
quarterly ARRA report. However, our review found that AMNH mistakenly did not report any
vendor payment information in its December 2009 report. Specifically, the Museum did not
report five vendor payments totaling $17,375 in the December 2009 report for two of three
ARRA grants because cognizant officials thought such payment information was only required



2
         OMB and NSF reporting guidance did not specifically address whether student trainees receiving stipend
support should be included in ARRA jobs reported. However, NSF issued guidance in May 2010 clarifying that
such trainees should be included in the ARRA job estimates.
3
       OMB Memorandum M-09-21, Implementing Guidance for the Reports on Use of Funds Pursuant to the
American Recovery and Reinvestment Act of 2009, was issued June 22, 2009.
                                                        5
for subawards. When it became aware that such vendor information was required by OMB
guidance, it took action to correct the information in the March 2010 report.

Increased Public Scrutiny on the Use of Recovery Act Funds

        As a result of the errors identified in three key ARRA data fields, AMNH had not
effectively achieved the unprecedented accountability and transparency goals required by the
Recovery Act. It is essential that the American public and other stakeholders be provided
accurate information on the number of ARRA jobs created/retained as well as the total amount
and ways funds have been expended on the Museum’s three ARRA grants totaling $1.8 million.
Pursuant to its NSF grant terms and conditions, AMNH is obligated to provide accurate and
complete quarterly reporting on how ARRA funds have been utilized to help stimulate the
country's economic recovery.

        Specifically, the lack of established AMNH processes for properly reporting job
estimates for tenured faculty, vendors, and student trainees resulted in no reported job impact for
any of the Museum's Recovery Act expenditures of $110,770 as of March 31, 2010. ARRA job
impact is perhaps one of the most scrutinized data elements and all stakeholders, including the
media, are extremely interested in how the Recovery Act funding has helped reduce the rate of
unemployment in our country. In the current economic downturn, every ARRA job created and
retained and consequently reported makes a difference.

        Also, AMNH had not fulfilled its obligation to provide information to the public on how
Recovery Act funds were spent by not consistently providing a comprehensive description of
quarterly project activities on all three of its ARRA grants. Financial information alone is not
always a clear indicator of the progress of a research project, thus clear narrative descriptions of
project activities is essential. For example, AMNH’s March 2010 report for one ARRA grant
did an excellent job communicating to the public that planning activities were in progress by
describing that minor renovation work and the purchase of equipment would soon be underway.
Such information could not be derived by looking at financial data elements because there were
no reportable expenditures to date. AMNH should endeavor to maintain this level of
transparency for all of its Recovery Act awards.

Factors Contributing to Reporting Weaknesses

         These reporting errors occurred because AMNH lacked (i) a thorough understanding of
the intricacies of federal ARRA reporting requirements, (ii) formal established procedures for
ARRA reporting, and (iii) an adequate data quality review process to preclude reporting errors.
According to cognizant AMNH officials, the volume and vagueness of OMB reporting guidance
were obstacles for developing a proficiency in ARRA reporting. As such, we found that
Museum officials were unaware of the specific reporting requirements for key ARRA data fields.

        Also, the Museum lacked adequate procedural guidance for its ARRA reporting process.
Although AMNH had developed written non-ARRA grant management policies and procedures,
it lacked sufficient formal procedures for reporting and complying with new ARRA grant
requirements. Given the Museum has a relatively small number of Recovery Act awards, it is
not expected that AMNH develop extensive policies and procedures for compiling and reporting
                                                  6
ARRA data. However, there does need to be some guidance, albeit limited guidance, established
to provide adequate internal control measures to meet the enhanced accountability and
transparency goals required by the Recovery Act.

        Lastly, contrary to Section 4.2 of OMB Memorandum M-09-21, 4 AMNH had not
established a sufficient formal data quality review process to ensure all ARRA data elements are
accurate, complete, and fully compliant with Section 1512 reporting guidance. Essentially, the
Manager of Restricted Funds, who was directly responsible for compiling and entering the
financial ARRA data elements into the quarterly report, reviewed only the programmatic data
elements completed by the Principal Investigators. However, AMNH did not have a review
process to ensure the accuracy and completeness of the financial ARRA data elements by
evaluating supporting documentation. Sound internal control requires that sufficient
documentation be maintained with ARRA reports to show any calculations and supporting data
used to compile and report key data fields.

Recommendations:

We recommend that the NSF Director of the Division of Institution and Award Support require
AMNH to:

1.1   Establish and implement a policy to ensure staff members responsible for ARRA reporting
      stay informed of OMB and NSF changes and updates to Recovery Act reporting
      requirements and seek OMB and/or NSF technical assistance for clarification of any
      ambiguities.

       OIG Comments:

      This recommendation was redirected from NSF to AMNH in the final audit report.
      Therefore, the Museum should provide its position on the new recommendation and any
      actions taken and/or planned in its Corrective Action Plan to NSF during the formal audit
      resolution process.




4
          OMB Memorandum M-09-21, Implementing Guidance for the Reports on Use of Funds Pursuant to the
American Recovery and Reinvestment Act of 2009 (issued June 22, 2009) requires “Prime recipients, as owners of
the data submitted, [to] have the principal responsibility for the quality of the information submitted.” Specifically,
the prime recipient is responsible for performing data quality reviews to identify reporting errors and making
appropriate and timely corrections.

                                                           7
1.2   Improve internal control measures for ARRA reporting as follows:

      a. Develop policies and procedures covering key aspects of ARRA reporting, including at
         minimum processes for reporting jobs for faculty, vendors, and student trainees;
         complete quarterly activities; and vendor payment information.

           American Museum of Natural History Response:

           AMNH concurred with the recommendation and stated it has updated its policy and
           procedures covering key aspects of ARRA reporting, including those mentioned above.
           However, the Museum disagreed with our audit finding that it had not accurately
           reported ARRA jobs. AMNH believed that because the OMB reporting guidance was
           not clear, the Museum’s decision not to report any jobs for tenured faculty, small
           vendors, and student trainees was appropriate based on its best “reasonable judgment”
           in interpreting the OMB reporting requirements.

           OIG Comments:

           Although the Museum disagreed with certain aspects of the audit finding, AMNH
           actions taken to develop formal ARRA reporting policies and procedures are fully
           responsive to the audit recommendation. Such written guidance will help ensure
           accurate, complete, and compliant ARRA reporting in the future and clearly document
           AMNH interpretation of any ambiguity in the OMB reporting requirements to meet the
           specific needs of its ARRA grants.

           With regard to AMNH’s disagreement with our audit finding on ARRA jobs reporting,
           we offer the following comments to reaffirm our conclusions:

           •    AMNH disagreed with our assessment that jobs should have been reported for a
                tenured faculty member who charged salary to an ARRA grant. The Museum
                believed that the OMB guidance, effective during the September 2009 reporting
                quarter, allowed the Museum to use “reasonable judgment” in not reporting the
                faculty member as a “job retained.” However, NSF supplemental guidance, 5
                effective during the September 2009 reporting quarter, explicitly stated that any
                personnel costs charged to an ARRA project should be reported as a “job retained.”
                Therefore, we reaffirm that the tenured faculty member working on the ARRA
                project should have been included in the reported jobs estimate.

           •    AMNH stated that in reporting vendor jobs that “basing the job estimate on
                cumulative amounts is inconsistent with ARRA job reporting requirements which
                are not cumulative in nature.” The Museum has misunderstood our statement in
                this regard; as we are not suggesting that vendor job estimates be based on
                cumulative vendor payments. Rather, our position is that AMNH needed to

5
         Data field 31, Number of Jobs, of NSF’s ARRA Recipient Quarterly Reporting Instructions (dated
September 28, 2009) states that “Recipients are advised that if an individual works on the NSF funded project, and
the recipient charges associated personnel costs to the ARRA project, this should be reported as a job retained. . .”
                                                          8
       establish formal policies and procedures to ensure jobs estimates were obtained
       from vendors, as required by OMB guidance, because the Museum lacked any
       written ARRA reporting procedures at the time of our review. However, we have
       revised the applicable sentence in the audit finding to provide clarification so that
       other readers will not similarly misunderstand our statement on this matter.

   •   AMNH stated that because OMB guidance, effective for the September 30, 2009
       reporting period, did not clearly define student support as a reportable ARRA job,
       the Museum exercised appropriate “reasonable judgment” in not reporting any jobs
       for the eight student trainees funded under the ARRA project. While we agree with
       the Museum that neither OMB nor NSF guidance at the time explicitly addressed
       whether such student trainees should be included in ARRA job estimates, we did
       not find any evidence that AMNH had taken any actions to contact either NSF or
       OMB for clarification on this matter. Good business practices dictate that the
       Museum should have contacted NSF for clarification in this regard. This was
       particularly important given that one of the major purposes of Recovery Act
       funding was to create jobs and eight students were a relatively large number of
       individuals participating on an ARRA grant. As such, proactive actions were
       warranted to ensure the enhanced ARRA accountability and transparency goals
       were achieved.

b. Establish a formal data quality review process to ensure its ARRA quarterly reports are
   accurate and complete.

   American Museum of Natural History Response:

   AMNH concurred with the recommendation and agreed that data quality review is an
   important part of ensuring complete and accurate reporting. As such, AMNH officials
   stated that since June 2010, the Museum has implemented updated procedures for
   internal reviews of reports prior to uploading to Federalreporting.gov and has amended
   its policy to formally require these internal reviews prior to quarterly reporting.

   OIG Comments:

   AMNH actions taken are responsive to the recommendation.




                                           9
2.    Improvements Needed to Ensure Indirect Charges on Recovery Act Awards are Allowable

        Federal grant regulations 6 allow recipients to charge direct and indirect costs to
sponsored projects. For NSF’s Research Experiences for Undergraduates (REU) Program, the
Foundation has limited indirect costs to 25 percent of participant support stipend amounts. To
ensure proper management of participant support costs on its federal grants, established AMNH
policies and procedures require that such costs be segregated in its accounting system using a
unique code and subcode.

        However, our review found that AMNH had not established adequate controls to ensure
indirect costs were properly charged on its ARRA grants. As a result, review of the Museum’s
three Recovery Act grants disclosed that AMNH had overcharged $3,072 or                 of total
indirect costs to REU grant 0850543 as of March 31, 2010. This occurred because contrary to
its NSF grant agreement, the Museum did not properly limit the indirect costs to only stipend
amounts but mistakenly included subsistence allowances for its eight REU participants.
According to AMNH officials, the subject error we identified was corrected by the Museum
during preparation of its June 2010 ARRA quarterly report.

Recommendations:

We recommend that the NSF Director of the Division of Institution and Award Support:

2.1    Resolve the $3,072 in questioned indirect costs charged to NSF grant 0850543.

       American Museum of Natural History Response:

       AMNH concurred with the recommendation and has already netted the overcharge of
       indirect costs against its cash drawdown of September 8, 2010.

       OIG Comments:

       AMNH actions taken are responsive to the recommendation.

2.2    Require AMNH to establish appropriate controls to ensure accurate application of the
       indirect cost rate to the proper cost categories.

       American Museum of Natural History Response:

       AMNH concurred with the recommendation and agreed that control processes could be
       further strengthened to ensure accurate application of the indirect cost rate to its federal
       grants. Thus, it is currently exploring other indirect cost calculation and review methods.
       However, the Museum noted that its existing review controls identified the indirect
       calculation error on NSF grant 0850543. Accordingly, it discontinued the practice that
       resulted in the overcharging of the indirect costs to the subject ARRA grant in June 2010.

6
         Section A.1 of OMB Circular A-122, Cost Principles for Non-Profit Organizations, provides that the total
cost of an award is the sum of the allowable direct and allocable indirect costs less any applicable credits.
                                                       10
OIG Comments:

AMNH proposed corrective actions are responsive to the recommendation.




                                       11
                                                                                    Appendix A

                      Background, Objectives, Scope, and Methodology

Background:

         Recovery Act Reporting Requirement: On February 17, 2009, the American Recovery
and Reinvestment Act of 2009 (Recovery Act or ARRA) was enacted to help the nation recover
from a severe economic downturn. The Recovery Act emphasizes unprecedented levels of
accountability and transparency over the $787 billion of public funds committed by Congress, of
which $3 billion was received by NSF. The public expects that the use of ARRA funds will
result in a positive impact to our nation's economy, including jobs creation and retention.
Accordingly, Section 1512 of the Recovery Act requires recipients to submit reports on ARRA
activity no later than 10 days after the end of each reporting quarter. The first ARRA quarterly
report was required to be submitted for the period ending September 30, 2009.

        ARRA reporting instructions are contained in the Office of Management and Budget
(OMB) guidance. OMB is the primary Federal agency responsible for providing Section 1512
reporting guidance used by Federal agencies, grant recipients, and grant sub-recipients. The
Federal guidance clearly establishes that recipients have primary responsibility for the quality of
data that is submitted. In addition, NSF has issued supplemental guidance to its recipients for
ARRA reporting.

        OMB published a Recipient Reporting Data Model to define the 99 data elements
required to be reported for each ARRA grant on June 22, 2009. Clarifications to the elements
were published by OMB as a set of Frequently Asked Questions with extensive updates
published to address both recipient and federal agency concerns; many of which were issued
only a short time prior to the end of each ARRA reporting quarter. Some of the key data
elements required to be reported include award number; quarterly activities/project description;
funds received/invoiced; expenditures; number of and description of jobs created/retained;
number and dollar of subawards and vendor payments; project status; and final report status.

         NSF Recipient Information: The American Museum of Natural History is a nonprofit,
educational corporation known as one of the world’s preeminent scientific and cultural
institutions. In 2006, the Museum established the Richard Gilder Graduate School and became
the only museum within the United States to award the Ph.D. degree. As a leading research
institution, the Museum houses a world class collection of nearly 32 million specimens and is
home to more than 200 scientists who work across broad disciplines of anthropology, biology,
paleontology, and earth and planetary sciences. During the 2009 fiscal year, the Museum had
total federal grant expenditures of $8.4 million, of which $4.1 million or 49 percent was charged
to NSF awards.

       As of March 31, 2010, AMNH had been awarded three ARRA grants totaling $1.8
million, which accounted for 8 percent of its NSF grant portfolio of $22.8 million and 61 awards.
ARRA expenditures totaled $110,770 or 6 percent of total Recovery Act awards as of March 31,

                                                12
2010. At the time of our review, AMNH had neither issued nor received any subawards funded
by the Recovery Act.

Review Objectives:

        Our review objectives were to determine whether AMNH had established an adequate
system of internal controls to provide reasonable assurance that (1) Recovery Act funds were
segregated and separately tracked in its project cost accounting system and (2) quarterly
reporting was timely, accurate, and fully compliant with Section 1512 reporting requirements.

Scope and Methodology:

         Our review focused on AMNH’s December 2009 ARRA report, but included review of
its March 2010 report to assess the Museum’s progress and improvements made in reporting
processes. Of the 99 data fields required to be reported for each ARRA grant, we selected key
elements that were either deemed critical to ensuring transparency or that were considered more
at risk of being reported inconsistently or inaccurately. Accordingly, our review focused on the
following eight data elements: number of jobs created/retained, funds received/invoiced,
expenditures, vendor payments, subaward amounts, quarterly activities/project description,
project status, and final report status. To gain an understanding of AMNH’s processes for
compiling and reporting of the ARRA data elements, we conducted a limited review of internal
controls related to our audit objectives. Our review included the following steps:

   •   Reviewed criteria applicable to Section 1512 reporting requirements, including OMB and
       NSF guidance.

   •   Reviewed AMNH policies, procedures, and processes for collecting, compiling,
       reviewing, and reporting ARRA data.

   •   Interviewed cognizant AMNH officials, including Principal Investigators, to gain an
       understanding of their role in the ARRA project management and reporting process.

   •   Performed analytical procedures to understand and evaluate AMNH’s Recovery Act
       reporting processes and related controls. This included the processes for reporting
       quarterly activities/project description, project status, and final report status; and ensuring
       ARRA funds were not awarded to debarred or suspended parties.

   •   Determined the reasonableness of the reported data elements when compared to
       supporting documentation for funds received/invoiced, expenditures, vendor payments,
       and subaward amounts.

   •   Reconciled the number of jobs created/retained to payroll records to determine the
       reasonableness of the number of jobs reported.

   •   Discussed fieldwork results with AMNH management officials.

                                                 13
        The onsite AMNH review work was performed from June 1 – 4, 2010, with additional
information obtained through September 2010. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan the review to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for the findings and conclusions contained in the report.




                                              14
                                Appendix B


AMNH Comments to Draft Report




             15
                                                                                                        f'N.,." 0•••" ... ,.,
AMERICA N MUSEUM 0 N ATURAL H ISTORY                                               1)                   • ..,... 1",hG9'S'JO
                                                                                                        I..,,, 1"'1'~4>O'




     Dr. BleU M . Bahr                                                                           F.bru., y 10. 2011
     A..i,.. nll ....... ,,'orO., .. ,., fm Audil
     orrLce of lu>pC,"o .. Ocu ...,1
     1'1'31;0",,1 Sci"nc ~ F".. "d.t;Q"
     4201IV,I",,, B~\tlev.,d
     IIrlltlg'oo, VA ~UJO

     Sltbjre!: NSP OIG Draft R'p"'1 <>n Rorovery Act Repotfinl!



     'ih< Anl<ric.n Mu«ltm ofN'tmul Hi<lo,y (AMNII) .01 oowl.J~ts i,. ,<,poltsibilioy 10 ,epool "",".... Iy.
     tin .. ly .nd cQ)lJIj.ten"y on ,, .. di.b""e",e'" ,,>d ad",j,,; ",.,;on of ARM rundo ."d is fully <'p.ble of
     "oing "'.

     AMNII will con,inlle '0 'I>ply .""ro,,';3Ie in[<m.1 , .....       ,=.  1o fi,lf,ll;u ARRA obligatio",.nO h..
     '''I>o,'''''d 10 the findlng' and "ooo ..... ,>o:I .. ioll. m.de by'l>: NSF Orr,<e ofhosp<Clm Cen ...1 bel<"",




              ol e     Fi"dllt~;   "A   I,,,",~d   fa,"'oy n"" nber. "ho chorg<d $, .472 "'ao'}' lQ on /I RRA £'0"<' wa.
               rIOl   i"dltd~   in [h. JON rtPOJIe<i,.
              AM:'':II U",>on •., AMNII is .\\~" 111:>1 OM[l M- 10-08. i,,"ed Dece,tIb< , 18 2009. def",e ••
              joo.s "". ,n   whkh wages c. s.b,,~,.t<' j>Oid (or cr will be ,"i,,,bl,, •• d IVIlh R..,o .... ry Ae :
              fundi"g. I lowe"", ""ome the •• I.ry '"PPO" .. r.,eocoo .b.",,, wos [or IKlivily wi'h;1I til<
              S.pteml>c, 30. 2009 '<pori P<flOO. 'V< l>cl 'eved lhe ,.I.", nl OMi! gll;d."". for tha, p<,ioo ,,~,
              OMB Memo""d"", M.09.2 1. i"".d JU'Ie 22. 2009. Sec,i"" S.2 of 1\1·1)9·21 <tefl, .., . "j< b
                          a.
              retAined" ".n exi .. ing position tllat ""uld          no'
                                                                 hove bee" <ontinlled,o be ftl led II",," it n~t fo,
              R<C<lvory ACI fundi Ill:. .. In k""ping with OMfl's Ih,n-cII,,<nt d.nnition or. job ,,"i 'lCd .• nd
              bas~ 0" Ih" ·~so llahl. j"dgo, .. m" di,ect~ by M·09-21 guid,nce. AMNfI did "01 .. Ihot I;me
              eo",;.!e, ""y",<,,It "', 1C""",d r"""lIy """"Ix, kl '1',.,i(y ... job ,.'nined.

              O IG     ~lndlng'    "Vendor job     ""i,,'alc> we,. lIOl oblOilled for cu",ul,, ;v. paym.n" 101. lm8
              $ 21.~40.
              '\0\-1"' 11 R",po" .., 11.. $21.540 ,n,oll'" i• • clImll lotiv. figll" "'p,.sen'ing five dilTeren, ...end",.
              and '.It ,,,o,,'h. "r ""'ivi,),. While AMNIl 'g,ee. Ihat in'i~lf ill[o 'he job <.. ilt .. ,< cot" be go"",,'
              by ""jewinl: Cllmulat;". ,,"Y''''''' ..."'un". ''''' believe b.sing the job e.lim.. c "n ellmul ...",
              .. no,,,," is i'lO"n,;mlll wilh /lRAft job '.-po"i"l requi,.",e,," whleh . t<' ,"" cIIII~,b'ive ~,
              n.t",e, Tbe ,umuL,,;v< lig\l'" oboY< ••pallllLng mlll'iple ARM r<p"f1ing period • • nd ",ul, iplc
              vendors, i, IIl1SleodillK in ,IS " Iev",,,,< 10 ,he job . slllll>le, AMNII eOllS,dor~ "."h I'.ndor
              pay""'"1 IVtlhLlI il' 1",;"'1 of appiic"bilily .ltd d.te,nlln.d Ih31 ,,,,,.. p.y",.,," lVere imn .. le,i.1
              toward. , ....,[111jcb est;",." ro •• i.,<n, \\'ith ·"'uson.bl. jndgm<n' " •• oxp,.,..,d in Sec1;"n U of
              OMIJ g"~I.""" M- I 0-08, AMNH has ,uMeq"clllly ",.. bllShed • ckor ve,.lor I"'Y""'" ,hr~,ho ld
              fUf pu'''"n~ ,'tndor Job ,eI","]O" ",>d "","Iio" d>l" and A.'vINIl ~'ill .J", n"'It,[o,      ""oc.-  I'oym. nl
              "end. oero .. ",ul' i,,1< q"o,'e" .. well as vendor type. to .. ,,"'"     0«",", ~,odor job COIoIl "."".




              C~nt ,~1    Pa, k We,t at 79th Shed New YO " . NewYo,k ' OO24'~192 www .• mnh .mg



                                                                16
AMERICAN MUSEUM                    ~ NATURAL HISTORY                     if)                '"OM'   C'U)M-~')o
                                                                                            r." r>"~ .l(»

         Ole; Fjll(li oS: "R<I"',bnJ of JOb< '" ARRA·fll nJeJ ,[uderll lr~onc<. was IlOl del."nir.ed because
         AMN II ,lid   no' roMode< ",hothe. su.ch .. ,Idea... oould b. inchodod iI. ,II<!tKo,-".,
                                                                                               Ad job
        estlmalt"" ... ~
        AM NII Res"""• • : AMNH conoidoml .11 ••1"'''''' .cti,-ily ",hr. I'«'I .. nllg '1'",[<. 11 "pOlIS.
        ,,,,,,",nS the ,uPPO" of A R RA _ ~,odr<l , ....... ~ ".Iorn for ,"" j<lb •• Ieod .."", . 110"",...." •
        • """,,' .nt .. j,b Ihcn cUITCQI ~uidmc<: in OMD MOI1"".ndum M-09-21, ..t.ich _ bdi< .... J dtd "",
        <kally deli"" .Iud< nl "'1'1"'"" job ",,,,,,,:able •• ,td in kttpinll wuh Oil. bat "r<' SODlo~ k
        j~"'nl. " AMNII dt,rrmin«llhal sn,de .. suw<>rl was not job "",,'table. That J.odvlle m is
        0000;'"'''' ",ilb AMNH ', inlerpr""ion of IRS regulations with       In.,...'   to .n.d<nt "'pend support
        .,'" AMN II ',     ".''''OIdu""lI".m of snide • •   InH''''.''
                                                                    F.-the, &uoda",,~ (lOr .....Jenl ""i'e<: job
        ,ncluslOn. nd ,IS .pphc""h{~ to AR kA .cport.tg "'as nor offered omil NSF', R""""" y ACI
        gu""'"". i..urd i ll M.y 21)](1••1 which tim. A M~H ~ its iniorpr<l.tiDn .od rq><>rlin&
        ]>1'0<:" "".




        OIG N II.llng ;     AMNIt has """' ..... bhshed .. ,ffo<>erU ]>1'0'......,. 10 en ••"e th.t odoq.a.o
                            K   • ••


        ~I'pliom of ",oJU! 0<:1",,! 0<. Jr. oon .... e",ly provodttl ,n its ,,"<fe,ly ..-porI •.. •• "
        AMN II n •• p. n..,; In «<ogn;';"" of ARJl.A·~ or,,_eucy Ilool .. AMNII ,,;11 ,no;"" if< ClIIfCI'
        ~•• od revi.., them o<:.orili",ly !o <.... "< thO! ...... "p,;.- of V"')tC! .."i" ties .re
        cn .."I.ntly prO\'idcd in ilS q".,,<rly "'1""11. nis I""occ", "ill in<ludo wo<king wi •• p, illCipal
        h"'''''II;'1Ors IOword, providi n~ nlOr"   ""..,.ip,",.
                                                             lopoI" of prognomm.lic acliv ilY duJing lhe
        reporting period.

        Vrndot l'.ymen!S kess than $l~.OOO NmllO be Acc ...... lrly ReponM

        O IG Hndln"        M   0 .... revi<", found lhot AMNIl n,ist.o.n"ly did"", topoo. O"Y ""ndo<poym.,,,
                                • ••


        inf",n",ion io ill [)c<cnobt, 2009 repuo I..."
        ... ;\\"' 1111 ••1'0","; AMKII r~"". this ...... C\lmcy~nd as .... ~ in IheOIG ropoo l AMNH
        110, olr""dy od]US!ed its ,merptol>1oo. of.he i\.II. II.A rq>O<ti"~ .""",1"0 regard ing ",rrlcr pay","''''
        .nd h. . c",=,ly rcporkd VC "dOf 1"')",,"'''15 00 """'''Iu<n' rq>OI"1l.

        R!,<o," " .. "dal jon.
        1.2 •. OIG R~ ln, . " d a(jon: "Reqt>iro AMNII '" ;,..,..,..., ;ntem>1 COIttrol    n","'"''
                                                                                                  for AKlI.A
        ,eportu'K • • follow" ' . De...,I"" ~vi;.."" poIioi"" and 11I1XecWr." co,""rio~ koy a>p<C1> of
        AIlItA .. porl,"g. ilo<luding'" """"'~'". !>fOCt"'se, fOf JOb, reportIng for f""" hy. vendors. aoo
        "'Kim.   or.i ...... ; com!,I<1< q,mTlcdy aclivilies; . nd "'..." pIIymrnt inf<>rmOlion."
        i\.~1 Nil R.spon . ~: AM NII "' . upd,"od ill policy a nd poocedl.1re$ covorms key o.pern or A RRA
        reportifl:, i""IOOi"I:!!Iose mentioned ,00,"". AMN Il will romi .... 10 lnon,"'" A RRA ~"""i"t:
        'nEUiI<cn ••"I. and evolvinl OMB aM NSF lUicl.1 ""c an:! int"rpnUlion .nd ..,,,i.w ,IS ow. ;nl...,..1
        ARItA poliey 100 con,i""""y wiob NSF .nd OMIl gui.bna.nd i~l<rl"""';'"

        1.1 b. O l G K c«H ",,,.,,d~ 1i" u: "R<:qIl". AMNII 1o i"""o"e m~"",1 COItlTOl me ....... for ARRA
        reporting .. I"oIlows: b E<lah li,h. ",... 1<10011 'I, .. hly ..,.,.iew process to emu.." i1' A RR A
                                                        M
        quzl«ly !cj>OfU ore "",",,,,'e a nd cmq>1<!e.
        I\M;" 11 R•• """..,; AMNH ogren 111:0 1 "'10 ",,"IllY review ;, .n ,mpo"",,1 JW"' of emuing
        ~ ..Id """"r"c rcp<>otill¥.nd .. <och .. roc" J"roc 2010 loa. """I."..,rlled updated p rocedu .. es
        for >OIe" .. l ",vie .... of   " 1"""
                                          p,ior 10 thoi, ""I<>a d '~~pc>f ti ng.goy. AMNI1 bo, a n..oo.d ,to
        ro"cy 10 f"",,.Uy "'lui,e         ,Ix,.                                """"""J&.
                                            ink.... l IeV!O:"" I" iOf '" qu., 10.ly




                                                  17
                                                                                                         f'''AN'' D .......... ,


AMERICAN MUSEUM::; NATURAL HISTORY                                                ®                      _,     1>"~s')O

                                                                                                         .... 1",10196-4>0>




        Z,     I""'rofin>l]", Nt<d«II9 1".",< hoJirc<\ Cha..CI             w, R<lioygy An .... w....1t ••e AIIoWllb!<
              OIG .1'1d1d~ : ".. ..... RView (ound ,hoi: AM NIl has noI ",".bI,,""'" .......... co""ok 10 ...."'.
              indi ...... _ weft . . . . . Iy cu,p<! in it! ARRA pco_ ... !\MN1I _ _ I{t...~ $l,072 ... oC
              ,nd" .... ooo.IS.. •. "
              AM NII R ......- . Wloilt AMNII rttOpUro lhol an nnr irI tile IJICIirCCl calcuLal"", .uocI ..
              <>YrI<:U'r;e'" NSf dod"" .... i ' ...... AMNH·.~ .. _ .......... _ . - one! ~ ro.r
              ,he ........... lhe J_ )(12010 q......,ly ~ AMNII ... ~I
               -.-~
                                                                                      <_.....
                                                                                     II> """.ioor w:I)'l '0 i"'P'''''''



               R ...... " ....... , IoJII
               Z.l OIG     R..,.""...,,,,.lIo,,:
                                          "w. fCC . . .      ,,,,rod ,h.,
                                                                the NSf DifCCl!!!' 0(',,", DIvision 0( I.... i'". .."
              _ A...rd ~,: 2. ' Rt'tOIV(: the Sl.072 inquationnl indllttl 00$11 cha ,ttd 10 NSF an"'
              08SQSo(3,"
              AM NII Jl:{",O" ~: AMN1!
              Plc.,.",'ioll of, ...    ''''''I
                                                 .'r.....
                                                 nd .1n:..Jy COtTc<lcd ~. caley I., ... " o( hbrec' «IIts <lUI i,.. il!
                                    JO. 101 0 Fw-,al FirwICi.1 Report (ffR). AMNlllw al,o rnu,<,,1cd it.
              re ....nirq: "r ,nduce' coo. viii ."bmi"im ,,(,hl1 FFR"" Ju ly 30, 2010 _ ... ,,,,!1M',,", "verch.,ge
              of jndilffl <0<1. osai .., ill eaoh dn...oo..n ors"ptcmba" I, 2010. AMNII doJ 001 ., . "y. in",
              "",il~..,n •   ""p'" of <..to d.. wlI f",on NSF.

               Z.l OIG R..-o,,,,, .. ,,d..,'.,,, "w. """".'d,,1    ,Iu. lho NSF o,,~            "r ..
                                                                                               Do .... ion 00 I..,; .........
              • nd A_rd~ : 2.1 ~ ... AMNII ",,<SIabl ....
              "",,'ic.ion of,,,,, iMWu. COlI rll{lO'~ I"apa.- <.~"
                                                                              '..,.opr_
                                                                                     conltuio lOu"we           :0«""'"
              MINH Rnpe"Je' l1Ioug~ 01"", AMNH'scxiSlilll.conI'"'' and lIS ",voewofindircc' <OSI.                             ,ho,
              ~ ..... _               ...... I!Od>tcct ..kwb._ .. _ on NSF OISOS<1J. AMNII .goees .... ,he
              OOII,roIl'"""CD .... be r",,1ra 1I.. nt;'boncd _ .. ....,h ir. <m'''''11y upIDU"lI". .... .:'i,..a
              nlcuLallon "OIl ~ .. onc1hock 10........,      ...,,,,,,\CopphnhOll or I'" ,ad.cel ............
              Add,' ...... lly. , ..."'''''Itt
                                            of """"I\Il~"" par",::;!"nI      ."pend
                                                                                .1Id      paI'''''...... ""'
                                                                                                     d ............'JU•
              .mich led 10 "'" t;>VnO .... ft1a>l "r .ho indirnc. cos< .... _ ~''' Iy II", oycrc'-l:< o f
              rndi,«, ~osti ..... di.....;"...:d upon II. di"""""y i" June 2010.




             CenIJal Pa,k We~t lit 79t h Street New York. New Yofk 'OO24'S'92 www.amnh.org


                                                      18
